No. 19-123

IN THE

Supreme Court of the United States
SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, ET AL.,
Respondents.
On Writ of Certiorari to
the United States Court of Appeals
for the Third Circuit
BRIEF OF LEE C. BOLLINGER, ERWIN
CHEMERINKSY, BURT NEUBORNE,
ROBERT C. POST AND GEOFFREY STONE
AS AMICI CURIAE IN SUPPORT OF
RESPONDENTS
Jonathan L. Marcus
Counsel of Record
Paul M. Kerlin
Emma S. Gardner
Kathleen Shelton
1440 New York Ave., NW
Washington, DC 20005
(202) 371-7000
jonathan.marcus@probonolaw.com
Counsel for Amici Curiae

i
TABLE OF CONTENTS

Page

INTEREST OF AMICI CURIAE ............................. 1
INTRODUCTION AND SUMMARY OF THE
ARGUMENT .................................................. 3
ARGUMENT ............................................................. 7
I.

THE GOVERNMENT MAY IMPOSE
LIMITATIONS ON THE MANNER IN
WHICH ITS CONTRACTORS
PERFORM A PUBLIC FUNCTION,
INCLUDING CONDITIONS THAT
REQUIRE COMMUNICATION OF A
MESSAGE RELATED TO THAT
FUNCTION .................................................... 8
A.

The government is entitled to
impose conditions on its
contractors to assist in the
performance of a governmental
function ................................................ 8

B.

When a private contractor
performs public services,
messages conveyed pursuant to
those services are attributable to
the government ................................. 10

ii
II.

THE CITY’S APPLICATION OF ITS
CONTRACTUAL
NONDISCRIMINATION
REQUIREMENT TO THE PROVISION
OF FOSTER CARE SERVICES IS A
PERMISSIBLE EXERCISE OF THE
CITY’S RIGHT TO PROMOTE ITS
INTERESTS ................................................. 12
A.

Foster care services are a
government function ......................... 13

B.

The condition that CSS contends
infringes its free speech rights is
clearly within the scope of the
foster care services ............................ 14

C.

The City does not address speech
of its contractors outside the
confines of the City’s foster care
program ............................................. 17

CONCLUSION ....................................................... 21
.

iii
TABLE OF AUTHORITIES
CASES
Agency for International Development v.
Alliance for Open Society International,
570 U.S. 205 (2013) ......................... 9, 10, 17, 18
FCC v. League of Women Voters of Cal.,
468 U.S. 364 (1984) ........................................... 6
Fulton v. City of Philadelphia,
922 F.3d 140 (3d Cir. 2019), cert.
granted, 140 S. Ct. 1104 (2020) .......... 13, 19, 20
Garcetti v. Ceballos,
547 U.S. 410 (2006) ............... 5, 6, 10, 11, 18, 19
Hurley v. Irish-American Gay, Lesbian &
Bisexual Group of Bos.,
515 U.S. 557 (1995) ......................................... 15
Janus v. American Federation of State, County
& Municipal Employees, Council,
138 S. Ct. 2448 (2018) ..................................... 15
Legal Services Corp. v. Velazquez,
531 U.S. 533 (2001) ............................... 6, 10, 17
National Institute of Family & Life Advocates v.
Becerra,
138 S. Ct. 2361 (2018) ..................................... 15
Obergefell v. Hodges,
135 S. Ct. 2584 (2015) ..................................... 19

iv
Pleasant Grove City v. Summum,
555 U.S. 460 (2009) ......................................... 11
Rosenberger v. Rector & Visitors of University
of Virginia,
515 U.S. 819 (1995) ......................... 9, 10, 11, 16
Rumsfeld v. Forum for Academic &
Institutional Rights, Inc.,
547 U.S. 47 (2006) ........................................... 13
Rust v. Sullivan,
500 U.S. 173, 194–95 (1991) ................... passim
Tenn. Secondary School Athletic Ass’n v.
Brentwood Academy, 551 U.S. 291 (2007)
......................................................................... 16
Waters v. Churchill,
511 U.S. 661 (1994) ......................................... 10
Wooley v. Maynard,
430 U.S. 705 (1977) ................................... 13, 14
STATUTES
23 Pa. Stat. and Cons. Stat. Ann. § 6344 (West)
......................................................................... 14
REGULATIONS
55 Pa. Code § 3700.64 (2020) .................................... 14
Pa. Code §§ 9-1101....................................................... 4

v
OTHER AUTHORITIES
Executive Order No. 10925,
26 Fed. Reg. 1977 (Mar. 6, 1961) .................. 16
Executive Order No. 11246,
30 Fed. Reg. 12319 (Sept. 28, 1965) ............... 16

INTEREST OF AMICI CURIAE1
Amici are law professors who teach or have
taught courses in constitutional law or the First
Amendment and have devoted significant attention
to studying freedom of speech issues, including by
publishing books and law review articles on the subject. They comprise the First Amendment scholars
below.
Professor Lee C. Bollinger—Professor Bollinger became Columbia University’s 19th president
in 2002 and is the longest serving Ivy League president.
Bollinger is Columbia’s first Seth Low
Professor of the University, a member of the Law
School faculty, and one of the nation’s foremost First
Amendment scholars. His latest book, The Free
Speech Century, co-edited with Geoffrey R. Stone,
was published in the fall of 2018 by Oxford University Press. Bollinger is a director of Graham Holdings
Company (formerly The Washington Post Company)
and serves as a member of the Pulitzer Prize Board.
From 2007 to 2012, he was a director of the Federal
Reserve Bank of New York, where he also served as
Chair from 2010 to 2012. From 1996 to 2002, Bollinger was the President of the University of
Michigan. He led the university’s historic litigation
in Grutter v. Bollinger and Gratz v. Bollinger, Supreme Court decisions that upheld and clarified the
1
The parties have consented to the filing of this brief. No
counsel for a party authored this brief in whole or in part, and
no person other than amici and their counsel has made any
monetary contribution to the preparation or submission of this
brief.

2
importance of diversity as a compelling justification
for affirmative action in higher education.
Professor
Erwin
Chemerinsky—Professor
Chemerinsky is Dean of Berkeley Law School.
Among other previous positions, Professor Chemerinsky was the founding Dean and Distinguished
Professor of Law, and Raymond Pryke Professor of
First Amendment Law, at the University of California, Irvine School of Law. Professor Chemerinsky
has authored eleven books including, Closing the
Courthouse Doors: How Your Constitutional Rights
Became Unenforceable and Free Speech on Campus,
and is the author of more than 200 law review articles.
Professor Burt Neuborne—Professor Neuborne
is the Norman Dorsen Professor of Civil Liberties
and a founding Legal Director emeritus of the Brennan Center for Justice at New York University Law
School. Professor Neuborne served as National Legal
Director of the ACLU from 1981 to 1986. He has
written and taught extensively on the First Amendment. His most recent book on the First Amendment
is Madison’s Music: On Reading the First Amendment.
Professor Robert C. Post—Professor Post is the
Sterling Professor of Law at Yale Law School. He
served as the School’s 16th dean from 2009 until
2017. Before coming to Yale, he taught at the University of California at Berkeley School of Law.
Professor Post specializes in constitutional law, with
a particular emphasis on the First Amendment. In
addition to publishing regularly in legal journals and

3
other forums, he has written and edited numerous
books, including Citizens Divided: A Constitutional
Theory of Campaign Finance Reform; Democracy,
Expertise, Academic Freedom: A First Amendment
Jurisprudence for the Modern State; For the Common
Good: Principles of American Academic Freedom
(with Matthew M. Finkin); and Prejudicial Appearances: The Logic of American Antidiscrimination Law.
Professor Geoffrey Stone—Professor Stone is
the Edward H. Levi Distinguished Service Professor
at the University of Chicago Law School. After clerking for Supreme Court Justice William J. Brennan,
Jr., he joined the Chicago Law School faculty in 1973
and served as Dean of the Law School from 1987 to
1993. Professor Stone has authored and co-authored
numerous books on constitutional law including The
Free Speech Century; Top Secret: When Government
Keeps Us in the Dark; Perilous Times: Free Speech in
Wartime; and Eternally Vigilant: Free Speech in the
Modern Era. He has received multiple awards for his
First Amendment work, including the First Amendment News Award and the American Civil Liberties
Union’s Harry Kalven Freedom of Expression Award.
INTRODUCTION AND SUMMARY OF THE
ARGUMENT
The City of Philadelphia (the “City”) acknowledges as among its most important governmental
tasks the responsibility for determining the legal custody and care of abused and neglected children in
Philadelphia who can no longer live with their legal
parents. Once such a determination has been made,
the City immediately seeks to provide the child-in-

4
need with alternative, legally sanctioned living arrangements—placement with foster parents in a
supervised home care setting; or, if home care is not
available or appropriate, placement in an appropriate
congregate care facility. In order to carry out its responsibilities to such children in need, the City
contracts with child welfare experts to identify,
screen, and certify eligible foster parents and to identify, supervise, and operate humane and nurturing
congregate care facilities.
As government contractors assisting in the
performance of the inherently governmental function
of determining the legal custody of a child-in-need,
child welfare experts enter into contractual agreements with the City to provide services to these
children in exchange for taxpayer-funded payments.
Among the most important of those contractual provisions is a duty imposed pursuant to the
Philadelphia Fair Practices Ordinance, Phila. Pa.
Code §§ 9-1101 to 9-1133 (2020), to provide child welfare services on a nondiscriminatory basis.
Petitioner Catholic Social Services (“CSS”) is a
child welfare organization that has contracted with
the City to provide expert assistance in placing children-in-need in an appropriate foster home or, if
necessary, in a congregate care facility. No argument
exists over CSS’s performance of its congregate care
duties. Despite the disagreement between the parties concerning foster care, CSS continues to assist
the City in placing abused and neglected children in
congregate care facilities.

5
A dispute has arisen, however, in connection
with CSS’s performance of its foster care duties. Invoking the First and Fourteenth Amendments, CSS
argues that it has a right under both the Free Exercise and Free Speech clauses to a religiously based
exemption from its contractual duty to investigate
and assess the fitness of same-sex married couples.2
Arguing that many of its contractual duties involving investigation, evaluation, and assessment of
prospective foster parents are necessarily carried out
by verbal communication, CSS claims that, in honestly assessing the fitness of same-sex couples, it would
have to engage in speech contrary to its beliefs.
Based on that claim, CSS seeks a categorical exemption from the contractual agreement with the City
that would require it to place the resulting honest
conclusions in written form. Even on the (dubious)
assumption that these contractually mandated services would require CSS to endorse foster parents’
same-sex relationships, but see City Resp. Br. at 4346, this effort to turn CSS’s religiously-based opposition to same-sex marriage into a free speech defense
to carrying out its contractual duties as an agent of
the government fails on multiple levels.
First, when government agents—including, as
here, those contracting with the government—engage
in speech integral to the performance of a lawful governmental act, the government agent is not engaged
in classic private speech protected by the free speech
clause of the First Amendment. See Garcetti v. CeThis brief amici curiae is limited to the free speech issues raised by petitioners.
2

6
ballos, 547 U.S. 410, 421-22 (2006). Were it otherwise, virtually every government activity dependent
on verbal communication would find itself hostage to
the political or social beliefs of the government
agents called upon to perform it.
Second, when, as here, the government contracts with a private entity to carry out a defined
government program involving communication, the
private contractor does not possess a First Amendment right to re-define the government program by
refusing to engage in speech related to its fulfillment.
Rust v. Sullivan, 500 U.S. 173, 192-94 (1991). While
a private contractor retains the First Amendment
right to speak on unrelated topics and to engage in
private criticism of the program, it may not subvert
or alter the program by refusing to comply with its
defined limits. See Legal Servs. Corp. v. Velazquez,
531 U.S. 533, 548-49 (2001); cf. FCC v. League of
Women Voters of Cal., 468 U.S. 364, 376-81 (1984).
That is so because, in carrying out the verbal aspects
of such a government program, the private contractor
delivers a governmental, as opposed to a private,
message.
Third, where performance of a governmental
function involves communication, the government
may impose conditions on that communication in assuring that the government function—including the
communication aspects needed to carry it out—is performed in an efficient, nondiscriminatory manner. It
is plainly constitutional to impose conditions so long
as they apply to the government program and not to
the private speech of the government contractor outside of that program. Because the City’s application

7
of its nondiscrimination provision to CSS’s performance of foster care services under the contract
meets all of these criteria, this Court should reject
CSS’s free speech argument.
The implications of CSS’s argument are highly
troubling. If the straightforward principles the Court
has previously articulated are not controlling, then a
public school teacher would have a First Amendment
right not to teach certain aspects of history that she
dislikes; a lawyer retained by a city to represent it in
certain matters would have a First Amendment right
not to make certain arguments on the city’s behalf if
he disagrees with those arguments; and a judge’s law
clerk would have a First Amendment right not to
draft opinions making arguments she rejects. However robust the protections of freedom of speech, they
do not extend to such circumstances. The same is
true here.
ARGUMENT
CSS is not a private speaker expressing itself in
the public square. Rather, to the extent it is using
words to fulfil its contractual duty to perform the
core governmental function of providing nondiscriminatory governmental custodial services to children in
need, CSS is functioning as the paid agent of the government.
From a free speech perspective, CSS is not distinguishable from literally thousands of government
agents, ranging from teachers, to computer programmers, to census takers, who contract with the
government every day to engage in speech or conduct
to carry out government programs. Whether one

8
views those words or actions as incident to the performance of a government service, or as the
communication of a government message, this Court
repeatedly has held that paid government agents
may not invoke the First Amendment to re-write a
government program to accord with the agent’s individual beliefs.
I.

THE GOVERNMENT MAY IMPOSE
LIMITATIONS ON THE MANNER IN
WHICH ITS CONTRACTORS PERFORM
A PUBLIC FUNCTION, INCLUDING
CONDITIONS THAT REQUIRE
COMMUNICATION OF A MESSAGE
RELATED TO THAT FUNCTION
A. The government is entitled to impose
conditions on its contractors to assist in
the performance of a governmental
function

Nearly thirty years ago, the Court made clear
that a government contractor or grantee can be required to tailor its speech consistent with the
objectives of the government program it is implementing. In Rust v. Sullivan, 500 U.S. 173 (1991),
the Court delineated this principle by upholding conditions restricting the speech of recipients of Title X
funding. See id. at 194-95. The Court explained that
the appropriate lens to view a speech restriction of a
government grantee is as a condition placed on the
grantee’s decision to participate in a government
program and not as a content-based restriction on
speech. The Court explained that “we have here not
the case of a general law singling out a disfavored

9
group on the basis of speech content, but a case of the
Government refusing to fund activities, including
speech [abortion services and counseling or information about abortion], which are specifically
excluded from the scope of the project funded.” Id.
The Court reinforced this principle in Rosenberger v. Rector & Visitors of University of Virginia,
515 U.S. 819 (1995), explaining that “[w]hen the government disburses public funds to private entities to
convey a governmental message, it may take legitimate and appropriate steps to ensure that its
message is neither garbled nor distorted by the
grantee.” Id. at 833.
When a private agency like CSS chooses to enlist as a paid government contractor to assist in the
performance of a governmental function, the government may articulate its expectations for services
to be provided and establish parameters for the program. And where the government’s expectations are
embodied in conditions that restrict speech, the
Court has deemed those conditions constitutional
provided they “are designed to ensure that the limits
of the federal program are observed.” Rust, 500 U.S.
at 193.
The Court distilled this principle in Agency for
International Development v. Alliance for Open Society International, Inc. 570 U.S. 205 (2013) (“AOSI”).
There, in invalidating a condition requiring organizations receiving federal funds to combat HIV/AIDS to
adopt a policy explicitly opposing prostitution, the
Court explained that “the relevant distinction that
has emerged from our cases is between conditions

10
that define the limits of the government spending
program—those that specify the activities Congress
wants to subsidize—and conditions that seek to leverage funding to regulate speech outside the contours
of the program itself.” Id. at 214-15 (emphasis added). 3 Under AOSI, Rust, and other cases, see, e.g.,
Velazquez, 531 U.S. 533 (invalidating government
restriction on private speech), the former type of condition is constitutional and the latter is not.
B. When a private contractor performs
public services, messages conveyed
pursuant
to
those
services
are
attributable to the government
Restrictions on speech imposed on government
contractors and grantees in carrying out government
programs are constitutional because the restricted
speech is that of the government, and not that of the
contractor. As the Court has observed, “Rust did not
place explicit reliance on the rationale that the counseling activities of the doctors under Title X
amounted to governmental speech; when interpreting
the holding in later cases, however, we have explained Rust on this understanding.” Legal Servs.
Corp., 531 U.S. at 541. See also Rosenberger, 515 U.S.
The Court applies similar principles in the context of
government employment, where restrictions on speech are permissible if they are related to the government’s role as an
employer. See Garcetti, 547 U.S. at 418 (“A government entity
has broader discretion to restrict speech when it acts in its role
as employer, but the restrictions it imposes must be directed at
speech that has some potential to affect the entity’s operations.”); see also Waters v. Churchill, 511 U.S. 661, 674-75 (1994)
(allowing the government to impose restrictions on speech of its
employees that it could not impose on private citizens).
3

11
at 833 (“[T]he government [in Rust] did not create a
program to encourage private speech but instead
used private speakers to transmit specific information pertaining to its own program.”); Pleasant
Grove City v. Summum, 555 U.S. 460, 467-68 (2009)
(“A government entity has the right to ‘speak for itself.’ ‘[I]t is entitled to say what it wishes,’ and to
select the views that it wants to express. Indeed, it is
not easy to imagine how government could function if
it lacked this freedom.”) (alteration in original) (citation omitted).
Rust and subsequent decisions of this Court
leave no doubt that, even when government speaks
through grantees and contractual partners, it may
impose requirements on public services, including on
the speech inherent in those services. This is because that speech is attributable to the government,
not the contractor or grantee.
The Court made this point explicit in Rosenberger.
While the Court there invalidated a
university policy of selectively denying funds to independent publications espousing religious viewpoints
as an impermissible restriction on private speech, the
Court expressly distinguished Rust as standing for
the proposition that “the government [is permitted]
to regulate the content of what is or is not expressed
when it is the speaker or when it enlists private entities to convey its own message.” Rosenberger, 515 U.S.
at 833 (emphasis added); cf. Garcetti, 547 U.S. at
421-22 (“Restricting speech that owes its existence to
a public employee’s professional responsibilities does
not infringe any liberties the employee might have
enjoyed as a private citizen. It simply reflects the ex-

12
ercise of employer control over what the employer itself has commissioned or created.”).
In certifying the suitability of prospective foster parents, CSS is acting as a government contractor
carrying out a government function under a government program, circumstances fully echoing this
Court’s many precedents on this issue. As such, CSS
is conveying the City’s message—speech the City has
the right to control, including by application of its
contractual nondiscrimination provision.
II.

THE CITY’S APPLICATION OF ITS
CONTRACTUAL NONDISCRIMINATION
REQUIREMENT TO THE PROVISION OF
FOSTER CARE SERVICES IS A
PERMISSIBLE EXERCISE OF THE
CITY’S RIGHT TO PROMOTE ITS
INTERESTS

Applying these government speech principles,
the resolution of CSS’s compelled speech argument is
straightforward: because CSS is a government contractor performing government functions, and the
condition at issue—requiring nondiscrimination in
certifying prospective foster parents as suitable caretakers—is a legitimate dimension of performing
those government functions, the City’s contractual
nondiscrimination provision is a legitimate limitation
on the manner in which CSS carries out the foster
care program.4

Moreover, as set forth in the City Respondents’ Brief, a
ban on discrimination has been viewed by the Court as a prohibition on conduct, and not on speech. See City Resp. Br. at 46
4

13
A. Foster care services are a government
function
Foster care services are an inherently governmental function.
The services are government
regulated, government funded, and public in nature.
Indeed, foster care “is comprehensively regulated
both by the Commonwealth of Pennsylvania and by
the City of Philadelphia,” with the state setting criteria for prospective foster families and establishing
the duties of foster parents and foster care agencies,
and the City selecting and contracting with specific
foster care agencies and referring children to those
agencies. See Fulton v. City of Phila., 922 F.3d 140,
147 (3d Cir. 2019), cert. granted, 140 S. Ct. 1104
(2020). The pervasive government role in foster care
is not surprising, given that altering the custodial
status of a child from the child’s birth parents to
someone else is a formal alteration of legal status.
The City’s foster care program is unequivocally not
performed privately.5

________________________
(citing Rumsfeld v. Forum for Acad. & Inst. Rights, Inc., 547
U.S. 47, 62 (2006)). To the extent that the Court nevertheless
views the nondiscrimination provision at issue here as regulating speech and not conduct, that provision is plainly permitted
for all the reasons set forth in this brief.
This is in stark contrast to the circumstances in Wooley
v. Maynard, 430 U.S. 705 (1977), where the state sought to regulate speech by private citizens engaged in private activity. See
id. at 713-15 (emphasis added); see also Pet. Br. at 30. In
Wooley, “New Hampshire’s statute in effect require[d] that appellees use their private property [their motor vehicles] as a
‘mobile billboard’ for the State’s ideological message or suffer a
penalty.” Wooley, 430 U.S. at 715 (1977). Unlike here, Wooley
5

14
B. The condition that CSS contends
infringes its free speech rights is clearly
within the scope of the foster care
services
The particular speech or conduct at issue
here—home study certifications and foster parent selections—is necessary to the public services CSS
provided pursuant to its previous contract with the
City. Evaluating, certifying, and selecting prospective foster parents are actions required under the
City’s contracts with private foster agencies and constitute a necessary step for the City to place children
in foster parents’ care and for CSS to receive compensation.6 Indeed, state regulations set the criteria
for these evaluations and certifications. See 55 Pa.
Code § 3700.64 (2020); see also 23 Pa. Cons. Stat.
§ 6344 (West 2018 & Supp. 2020). The certifications
made pursuant to these state regulations are clearly
within the contours of CSS’s contract with the City.
In performing these certifications, CSS acts on behalf
of the government. Accordingly, the City is entitled

________________________
involved the state imposing a message on private parties engaged in private activity.
CSS’s argument that the City “does not fund home studies” because the funding structure is based on the number of
children placed with certified families, see Pet. Br. at 33, is a red
herring. Home studies must be conducted before a child can be
placed in a family and thus are necessary for CSS to undertake
in order to receive compensation under its contract with the
City.
6

15
to place conditions on these services performed under
the contract.7
Here, the City sets conditions to which all of
its contractors must adhere in completing the certifications of prospective foster parents. The City’s
contractual nondiscrimination provision requires
that contractors cannot find applicants unqualified
for a discriminatory reason, including their sexual
orientation or same-sex relationship. Adherence to
the City’s nondiscrimination provision is required for
all foster care providers. In applying this condition,
the City seeks to maximize the pool of foster parents
and make its foster care system more inclusive. CSS
does not challenge the appropriateness of this condition.
Applying its contractual nondiscrimination requirement in an even-handed manner serves the
City’s interest in making its foster care system inclusive and welcoming. The requirement is undoubtedly

Petitioners point to Janus, Hurley, and NIFLA as support for their claim that the government cannot restrict speech
in foster parent certifications. Pet. Br. at 30–32. However,
these cases are inapposite: the contractual provision at issue
here restricts speech or conduct related to the government’s
function and is applied equally to all foster care agencies that
contract with the City. See Janus v. Am. Fed’n of State, Cnty. &
Mun. Employees, Council, 138 S. Ct. 2448, 2460 (2018) (considering speech that was unrelated to the government’s function);
Hurley v. Irish-Am. Gay, Lesbian & Bisexual Grp. of Bos., 515
U.S. 557, 573 (1995) (involving no government contractors but
rather private parties); Nat’l Inst. of Family & Life Advocates v.
Becerra, 138 S. Ct. 2361, 2370 (2018) (“NIFLA”) (emphasizing
the fact that the restriction was not applied to all similarly situated organizations).
7

16
a “legitimate and appropriate” way to achieve this
interest. See Rosenberger, 515 U.S. at 833.
The Court has explicitly affirmed government
criteria that set forth conditions that contractors
must follow to help ensure the achievement of the objectives of a government’s program. See Rust, 500
U.S. at 194 (“[W]hen the Government appropriates
public funds to establish a program it is entitled to
define the limits of that program.”).8 Indeed, CSS’s
argument is identical to the unsuccessful argument
made by the doctors and reproductive health care
providers in Rust. In both circumstances, petitioners
argued the government’s restrictions on speech
amounted to placing unconstitutional conditions on
Requiring government contractors to carry out their responsibilities pursuant to nondiscrimination requirements is
not a new or novel development. Our nation’s history is replete
with examples of government contractors operating according to
such requirements. For example, President Kennedy signed
Executive Order 10925 nearly sixty years ago, requiring government contractors to “take affirmative action to ensure that
applicants are employed and that employees are treated during
employment without regard to their race, creed, color, or national origin.” Exec. Order No. 10925, 26 Fed. Reg. 1977 (Mar. 6,
1961), superseded by Exec. Order No. 11246, 30 Fed. Reg. 12319
(Sept. 28, 1965). And Executive Order 11246, first issued in
1965, “prohibits federal contractors and subcontractors from
engaging in workplace employment discrimination on the basis
of race, color, religion, sex, sexual orientation, gender identity or
national origin.” Guide for Small Businesses with Federal Contracts, U.S. Dep’t. of Labor, Office of Fed. Contract Compliance
Programs
(last
visited
Aug.
13,
2020),
https://www.dol.gov/agencies/ofccp/compliance-assistance/guides
/small-business-guide. See also Tenn. Secondary Sch. Athletic
Ass’n v. Brentwood Acad., 551 U.S. 291, 299 (2007) (the government’s “interest in enforcing its rules [can] sometimes
warrant curtailing the speech of its voluntary participants.”).
8

17
the use of government funds. The Court rejected the
petitioners’ argument in Rust, finding that “[t]he
condition that federal funds will be used only to further the purposes of a grant does not violate
constitutional rights.” Id. at 198. Here, CSS is in a
significantly weaker position than the grantees in
Rust because CSS is a government contractor, not
merely a grantee, and because CSS signed a contract
that explicitly contained the nondiscrimination parameters of the government program.9
C. The City does not address speech of its
contractors outside the confines of the
City’s foster care program
As permitted under the Court’s jurisprudence,
the City’s alleged speech restriction attaches only to
the foster care program, and not more broadly. It
does not restrict the non-program expression or conduct of contractors. The City is not asking CSS to
change its religious beliefs about same-sex marriage
in order to provide foster care services or receive government funding. Cf. AOSI, 570 U.S. at 210 (act
required organizations to adopt a policy opposing
prostitution as a condition of receiving government
funds). The City does not prohibit CSS from voicing
its opposition to same-sex marriage outside of its foster care work. 10 Rather, the City applies the
Unlike here, the doctors in Rust never explicitly agreed
to limit the scope of the doctor-patient relationship, any more
than the lawyers in Velazquez, 531 U.S. 533, agreed to limit the
zealous defense of their indigent clients.
9

Indeed, the City has made clear that it would permit
CSS to voice its opposition even within the foster care program,
demonstrating that the City is seeking to prohibit discriminato10

18
nondiscrimination condition to CSS solely in its role
as a contractor providing foster care services. CSS’s
contract with the City leaves CSS “unfettered in its
other activities,” Rust, 500 U.S. at 196, and free to
engage in whatever speech it chooses related to marriage or same-sex relationships “outside the scope of
the [government] funded program.” Id. at 197.
The scenario CSS challenges in this proceeding
is precisely that which the Court held was constitutionally permitted in AOSI. In that case, the Court
held that while the government could not require organizations to affirm their own agreement with the
government’s policy as a condition of accepting government funds, the government could prohibit use of
government money to promote ideas with which the
government disagreed. See AOSI, 570 U.S. at 213-14.
As the Court explained in AOSI, when “a party objects to a [legitimate] condition on the receipt of
[government] funding, its recourse is to decline the
funds. This remains true when the objection is that a
condition may affect the recipient’s exercise of its
First Amendment rights.” Id. at 214; see also Rust,
500 U.S. at 175 (finding regulations permissible
where they “do not force the Title X grantee, or its
employees, to give up abortion-related speech” but
rather “merely require that such activities be kept
separate and distinct from the activities of the Title X
project”); cf. Garcetti, 547 U.S. at 418 (“When a citi________________________
ry conduct and not curtail speech. While the City will not permit CSS to refuse to certify an otherwise qualified same-sex
couple because of their relationship, it would allow CSS to provide an express statement with any such certification that the
certification does not constitute an endorsement by CSS of the
couple’s relationship. See City Resp. Br. at 46.

19
zen enters government service, the citizen by necessity must accept certain limitations on his or her [First
Amendment] freedom.”).11
Far from requiring religious organizations
such as CSS to express support for same-sex marriage in all of their services, to all of their audiences,
and throughout the entirety of their respective missions, the City instead has continued to work with
religious organizations that disapprove of same-sex
marriage, including CSS itself. Indeed, even since
this dispute arose, “the City has expressed a constant
desire to renew its full relationship with CSS as a
foster care agency.” Fulton, 922 F.3d at 159.
The City, for example, has maintained substantial contracts with CSS for related services
concerning congregate care and case management.
Petitioners’ argument that CSS’s right under Obergefell
to advocate for the condemnation of same-sex marriage is impaired, Pet. Br. at 32, is without merit. In Obergefell, the Court
made clear that “religions, and those who adhere to religious
doctrines,” may continue to hold firm to an understanding of
marriage as limited to different-sex couples, and “[t]he First
Amendment ensures that religious organizations and persons
are given proper protection” with respect to religious practices
consistent with that understanding. Obergefell v. Hodges, 135 S.
Ct. 2584, 2607 (2015). Consistent with Obergefell, here, CSS is
free to hold, express, and practice a religious understanding of
marriage that is limited to the union of one man and one woman. If CSS believes that contracting with the City to provide
foster care services in a nondiscriminatory way impairs that
right, it is free to choose not to participate. The City in no way
seeks to impair CSS’s ability as a private institution, as opposed
to a government contractor performing a discrete public function, to advocate for the condemnation of same-sex marriage.
11

20
Id. at 160. It has also continued to contract with CSS
to provide ongoing services for the foster families it
was already supporting and to refer new children to
CSS when in the best interests of the particular child.
See City Resp. Br. at 6.12 Furthermore, the City has
continued its foster care contract with Bethany
Christian, another religious organization. It did so
with full awareness that, while Bethany Christian
agreed to adhere to its contractual obligations relating to foster care services, Bethany Christian
maintains its religious opposition to same-sex marriage. Id. Neither CSS nor its peer organizations are
compelled as private institutions to condone same-sex
marriage as a condition of contracting with the City
to perform foster care services.
Ultimately, granting CSS the constitutional
right to re-write a contract governing the performance of a core governmental function would
produce perverse and unworkable consequences. Allowing government contractors to unilaterally modify
the terms of a voluntary contract would render government powerless to use contractors to achieve its
objectives. And allowing government contractors to
ignore nondiscrimination provisions within that contract would mean that a government could prevent
the discriminatory implementation of its programs
only by not hiring contractors. In the context of fosMoreover, CSS also is free to continue to pursue opportunities to work with at-risk children in its community and care
for them without state support. In any event, the consequences
of CSS’s choice not to continue to contract with the City on account of a condition that restricts CSS only in carrying out the
City’s contracted-for services provide no basis to invalidate the
City’s program-related policy.
12

21
ter care services, for example, a contractor could refuse to certify a family because that family supported
a particular political candidate, because they belong
to a church or synagogue, or because of their race.
These unacceptable outcomes only confirm the wisdom of this Court’s longstanding rule that the First
Amendment does not compel the government to surrender control of its programs or undercut the
objectives they are designed to achieve.
***********
Under the Court’s free speech precedents, the
City has put CSS to an entirely ordinary, constitutional choice: it may continue contracting to provide
foster care family certification services under the
City’s contract subject to the City’s prohibition
against discrimination or it may stop providing those
services.
The First Amendment’s protection of
speech does not require otherwise. The plain and
simple fact is that, from a free speech perspective,
this case is no different from a case in which an organization sought to participate in this program but
refused to engage with prospective foster parents
who are Catholic or who vote Republican or who support Black Lives Matter. When acting as an agent of
the government, it has no First Amendment right to
impose their views on the performance of the government’s program.
CONCLUSION
For the foregoing reasons, the judgment of the
court of appeals should be affirmed.

22
Respectfully submitted,
Jonathan L. Marcus
Counsel of Record
Paul M. Kerlin
Emma S. Gardner
Kathleen Shelton
1440 New York Ave., NW
Washington, DC 20005
(202) 371-7000
jonathan.marcus@probonolaw.com
Counsel for Amici Curiae

August 20, 2020

